District of Columbia F 1 LE D

 

Court of Appeals WAR 12 2019
No. 16-CV-444 DISTRICT OF COLUMBIA
COURT OF APPEALS

DR. MARCUS TURNER, SR., et al,

Appellants,

v. CAB1406-15

ALVA C. HINES, et al,

Appellees.

BEFORE: Glickman,* Fisher, Thompson, Beckwith, Easterly,* and McLeese,
Associate Judges, and Nebeker,** Senior Judge.

ORDER

On consideration of appellants’ consent motion for extension of time to file a
petition for rehearing or rehearing en banc, and appellants’ lodged petition for
rehearing or rehearing en banc, it is

ORDERED that appellants’ motion for extension of time to file a petition for
rehearing or rehearing en banc is granted, and the Clerk shall file appellants’ petition
for rehearing or rehearing en banc. It is

FURTHER ORDERED by the merits division* that the petition for rehearing
is denied; and it appearing that no judge of this court has called for a vote on the
petition for rehearing en banc. It is

FURTHER ORDERED that the petition for rehearing en banc is denied.

PER CURIAM

* Judge Nebeker replaced Judge Farrell on this panel following Judge Farrell’s
retirement.

Chief Judge Blackburne-Rigsby did not participate in this case.
No. 16-CV-444
Copies to:
Honorable Robert R. Rigsby

Civil Division

Quality Management Unit
Seth Rosenthal, Esquire
Calvin R, Nelson, Esquire
Venable LLP

575 7th Street, NW
Washington, DC 20004
Copies e-served to:
Joseph G. Cosby, Esquire

Joshua Counts Cumby, Esquire

Bradford S. Bernstein, Esquire
James A. Sullivan, Esquire

bep

 

 
